No. 21-

 

IN THE
SUPREME COURT OF THE UNITED STATES

 

AMOS MAST, MENNO MAST, SAM MILLER, and AMMON
SWARTZENTRUBER,
Petitioners,
vs.
COUNTY OF FILLMORE, and MINNESOTA POLLUTION CONTROL
AGENCY,

Respondents.

 

On Petition for a Writ of Certiorari to
the Minnesota Court of Appeals

 

CERTIFICATE OF COMPLIANCE

 

As required by Supreme Court Rule 33.1(h), I certify that the petition for writ
of certiorari contains 6,389 words, excluding parts of the document that are

exempted by Supreme Court Rule 33.1(d).
The names and addresses of those served are as follows:

Brett Corson

Fillmore County Attorney
PO Box 307

Preston MN 55965

Keith Ellison, Attorney General, State of Minnesota
Christina Brown

Janine Kimble

445 Minnesota Street, Suite 900

Saint Paul MN 55101-2127

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 20, 2021.

LAW OFFICES OF SOUTHERN MINNESOTA

   
 
 

REGIONAL LEGAL SERVICE

Brian N. Lipford,/[D #313856

Attorney for Petitioners

903 West Center Street, Suite 230

Rochester MN 55902
507.292.0080
brian.lipford@smrls.org
